No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, ET AL.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ & BARRY LEE JONES,
Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 22nd day of July, 2021, I caused three copies of the Brief for Jonathan F.
Mitchell and Adam K. Mortara as Amici Curiae in Support of Petitioners to be served
by third-party commercial carrier on the counsel identified below, and caused an
electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.
Lacey Stover Gard
Chief Counsel
OFFICE OF THE ATTORNEY GENERAL
400 West Congress Street, Bldg. S-315
Tucson, AZ 85701
(520) 628-6654
lacey.gard@azag.gov

Robert Mark Loeb
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15th Street, N.W.
Washington, D.C. 20005
(202) 339-8475
rloeb@orrick.com
Counsel for Respondents

Counsel for Petitioners

Elizabeth A. Kiernan

